No.
IN THE

Oupreme Court of the Zfluiteb Otateci
CARING FOR MONTANANS, INC. AND HEALTH CARE SERVICE
CORPORATION,
Petitioners,
v.
THE DEPOT, INC., UNION CLUB BAR, INC., AND TRAIL HEAD, INC.,
Respondents.

CERTIFICATE OF COMPLIANCE WITH RULE 33.1
As required by Supreme Court Rule 33.1(h), I certify that the Petition for a
Writ of Certiorari contains 8,985 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on July 15, 2019.

Anthony F. Shelley
Counsel of Record
Miller & Chevalier Chartered
900 Sixteenth St. NW
Washington, DC 20006
Telephone: 202-626-5800
Facsimile: 202-626-5801
E-mail: ashelley@milchev.com
Counsel for Petitioner Caring For
Montanans, Inc.

